■J

'

' •—

IN THE SUPREME COURT OF THE UNITED STATES
No.
MARIA M. ROSAS, Petitioner
v.

CHICAGO POLICE DEPARTMENT, an agency of the CITY OF CHICAGO;
MADDEN MENTAL HEALTH CENTER, a State of Illinois Hospital; ADVOCATE
HEALTH AND HOSPITALS CORPORATION, doing business as ADVOCATE
CHRIST MEDICAL CENTER; and MACNEAL HOSPITAL, now known as VHS of
Illinois, Inc., Respondents.

CERTIFICATE OF SERVICE

I, Maria M. Rosas, pro se Petitioner, hereby certifies that on this 29th day 0f
January, 2021,1 caused three copies of the Petition For A Writ Of Certiorari to be
served by U.S.P.S. Priority Mail on the following counsel:

(1) CHICAGO POLICE DEPARTMENT, an agency of the City of
Chicago
Myriam Z. Kasper, Attorney

OFFICE OF THE CORPORATION COUNSEL
Appeals Division
Suite 580
Two N. LaSalle Street
Chicago, IL 60602
(2) MADDEN MENTAL HEALTH CENTER, A State of Illinois Hospital
Maura Forde OMeara, Attorney

OFFICE OF THE ATTORNEY GENERAL
Civil Appeals Division
12th Floor
100 W. Randolph Street
State of Illinois Center
Chicago, IL 60601

J

■

(3) ADVOCATE HEALTH AND HOSPITALS CORPORATION, doing business
as
ADVOCATE CHRIST MEDICAL CENTER
Kevin J. Clancy, Attorney
L&G LAW GROUP LLP
Suite 950
175 W. Jackson Boulevard
Chicago, IL 60604
(4) MACNEAL HOSPITAL, now known as VHS of Illinois Hospital
Robert E. O'Malley, Attorney
SMITH, BLAKE, HILL LLC
Suite 1700
20 N. Clark Street
Chicago, IL 60602

I further certify that all parties required to be served have been served.

Executed on January 29, 2021

yinhA,yVh ttto&cU-J 7-27-3V
Marih M. Rosas, pro se
6333 South Lavergne Avenue
Chicago, Illinois 60638
Telephone: (773) 884-2140
E-mail: irmarosaswebsite@gmail.com

